IN THE SUPREME COURT OF THE UNITED STATES
__________________________
No. 19-A- ____
__________________________
STRIKEFORCE TECHNOLOGIES, INC.,
Applicant,

v.
SECUREAUTH CORPORATION,

Respondent.
__________________________
APPLICATION TO THE HONORABLE JOHN G. ROBERTS, JR., CHIEF
JUSTICE, FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE A
PETITION FOR A WRIT OF CERTIORARI TO THE UNITED STATES
COURT OF APPEALS FOR THE FEDERAL CIRCUIT
__________________________

Salvatore P. Tamburo
Charles W. Saber
Counsel of Record
Blank Rome LLP
1825 Eye St. N.W.
Washington, D.C. 20006
(202)420-2200
stamburo@blankrome.com
csaber@blankrome.com

S. Gregory Herrman
Blank Rome LLP
1825 Eye St. N.W.
Washington, D.C. 20006
(202)420-2200
gherrman@blankrome.com

Counsel for Applicant

121172.00613/119593671v.1

RULE 29.6 STATEMENT
StrikeForce Technologies, Inc. has no parent corporation and that there is no
publicly held corporation holding 10% or more of its stock

i
121172.00613/119593671v.1

TO THE HONORABLE JOHN G. ROBERTS, JR., CHIEF JUSTICE OF THE
UNITED STATES AND CIRCUIT JUSTICE FOR THE FEDERAL CIRCUIT:
StrikeForce Technologies, Inc. (“StrikeForce”) respectfully requests a 60-day
extension of time, to and including July 19, 2019, within which to file a petition for a
writ of certiorari to review the judgment of the U.S. Court of Appeals for the Federal
Circuit in StrikeForce Technologies, Inc. v. SecureAuth Corporation, No. 18-1470
(Fed. Cir.). The court of appeals entered judgment on February 19, 2019. Unless
extended, the time for filing a petition for a writ of certiorari will expire on May 20,
2019. Pursuant to this Court’s Rule 13.5, this application is being filed at least 10
days before that date. This Court has jurisdiction under 28 U.S.C. § 1254(1). A copy
of the court of appeals’ Rule 36 judgment is attached as Exhibit 1.
As explained below, the extension is necessary to permit counsel of record—
who was not retained for this matter until after the Federal Circuit affirmed the
district court’s judgment—to familiarize themselves with the record, to determine
whether to file a petition for a writ of certiorari, and, if one is to be filed, to see to its
preparation and submission. Counsel of record also has been heavily engaged with
the press of other matters.
1.

The patents at issue in this case—U.S. Patent Nos. 7,870,599 8,484,698

and 8,713,701 (“the StrikeForce Patents”) -- disclose StrikeForce’s unique system and
method for performing completely “out of band” authentication designed to secure
online systems. In 1999, the inventor, Mr. Pemmaraju, recognized that contemporary
security solutions were inadequate to prevent hackers from penetrating secured
1
121172.00613/119593671v.1

online systems—a significant problem for the developing commercial potential of the
Internet. In particular, Mr. Pemmaraju realized that hackers could easily
compromise then-popular security systems, such as simple password systems,
random password systems, and biometric systems, because there the password and
biometric information was often transmitted on the same channel as the information
the user wanted to access (i.e., on the in-band channel).
As the StrikeForce Patents explain, the use of a single channel for both access
and authentication created a technical problem whereby “the hacker is in a selfauthenticating environment.” In other words, by breaching the sole, in-band channel,
the hacker could intercept user authentication information (e.g., a user name and
password) passed along that channel and could then use this information at a later
time to fool the system into believing that he is a legitimate user. Moreover, once a
hacker had penetrated the sole channel and stolen credentials, he could remain
undetected for extended periods, collecting additional sensitive data.
Mr. Pemmaraju invented a novel computer security architecture that instead
used two separate communication channels—an “in-band” channel for access and a
second “out-of-band” channel for authentication—to allow legitimate users to access
secured data. His invention overcame the fundamental flaw in prior art systems
described above—namely, the hacker’s ability to “trick” the system by using stolen
user names and passwords—by intercepting user name and password information
and diverting it to a second channel for authentication. Without access to this second
channel, known as the “out-of-band” or “authentication” channel, the hacker could
2
121172.00613/119593671v.1

not provide the secondary authentication information necessary to authenticate a
legitimate user.
Respondent (SecureAuth) promotes and sells three authentication products, of
its more than 25 total authentication products, that use the completely out of band
authentication described in the StrikeForce Patents. On March 16, 2017, StrikeForce
sued SecureAuth in the Eastern District of Virginia for willfully infringing the
StrikeForce Patents. On April 28, 2017, SecureAuth moved to dismiss, arguing only
that

the

Complaint

contained

insufficient

detail

regarding

StrikeForce’s

infringement contentions and willful infringement claims, and also moved to transfer
to the Central District of California. SecureAuth’s motion to transfer was granted on
June 9, 2017.
On July 17, 2017, by stipulation of the parties, StrikeForce filed an Amended
Complaint, reflecting the detailed infringement contentions that StrikeForce, under
the local rules of the Eastern District of Virginia, had already served. On July 21,
2017, SecureAuth filed a new motion to dismiss, arguing, for the first time, that the
StrikeForce Patents did not cover patent-eligible subject matter under 35 U.S.C. §
101. On December 1, 2017, without allowing any discovery to occur, the district court
granted SecureAuth’s motion to dismiss with prejudice, finding all asserted claims of
the StrikeForce Patents invalid under 35 U.S.C. § 101. The district court entered
final judgment on December 28, 2017.
2.

StrikeForce appealed to the Federal Circuit, arguing in part that the

district court should not have granted the early motion to dismiss where there were
3
121172.00613/119593671v.1

fact issues to be decided under the second prong of Alice Corp. Pty. v. CLS Bank Int’l,
573 U.S. 208 (2014) and without allowing any discovery to occur.
StrikeForce argued that under Berkheimer v. HP, Inc., 881 F.3d 1360 (Fed. Cir.
2018), petition for cert. filed (U.S. Sept. 28, 2018) (No. 18-415), Solicitor General
invited to file brief (U.S. Jan. 7, 2019) (No. 18-415), that is not sufficient to grant a
motion to dismiss, and, at the very least, the case must be remanded for a
determination of the disputed issues of fact. The court of appeals did not issue a
written opinion and instead affirmed the district court’s judgment under Rule 36.
3.

StrikeForce respectfully requests that an extension of time be granted.

The additional time is needed to determine whether to file a petition for a writ of
certiorari and, if one is to be filed, to see to its preparation and submission. Counsel
of record was not retained for this matter until after the Federal Circuit’s decision
affirming the district court. Counsel requires additional time to review the record
and the issues involved. Counsel of record also has been heavily engaged with the
press of other matters.1 Accordingly, StrikeForce respectfully requests a 60-day
extension of time within which to file a petition for a writ of certiorari.

These include the preparation for oral argument in the U.S. Court of Appeals
for the Federal Circuit in Arthrex, Inc. v. Smith & Nephew, Inc., No. 18-1584
scheduled for June 7, 2019; the preparation of a reply brief in support of a
motion for sanctions and fees under 35 U.S.C. § 285 and 28 U.S.C. § 1927 in
the U.S. District Court for the Central District of California in Saint-Gobain

1

Ceramics & Plastics, Inc. v. II-VI Incorporated and II-VI Optical Systems, Inc.,

No. 5-18-cv-01798-CAS-SHK, currently due May 20, 2019, and oral argument
in support of the same motion, currently scheduled for June 3, 2019;
preparation of Defendant’s Preliminary Notice of Prior Art in the U.S. Court of
Federal Claims in Ideal Innovations, Inc., The Right Problem, LLC, and Robert
Kocher v. The United States, et al., No. 17-889C, currently due July 12, 2019;
4
121172.00613/119593671v.1

Dated: May 8, 2019

Respectfully submitted,
/s/ Salvatore P. Tamburo

Salvatore P. Tamburo
Charles W. Saber
Counsel of Record
Blank Rome LLP
1825 Eye St. N.W.
Washington, D.C. 20006
(202)420-2200
stamburo@blankrome.com
csaber@blankrome.com

S. Gregory Herrman
Blank Rome LLP
1825 Eye St. N.W.
Washington, D.C. 20006
(202)420-2200
gherrman@blankrome.com

Counsel for Applicant

and preparation for oral argument in the U.S. Court of Appeals for the Federal
Circuit in Daikin Industries, Ltd., Daikin America, Inc., Appellants v. The
Chemours Company FC, LLC, No. 18-1389.
5
121172.00613/119593671v.1

